No. 19-431 & 19-454
IN THE

6uprente Court of tbe Einiteb i§tate5
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, et al.,
Petitioners,
v.
PENNSYLVANIA, et al.,
Respondents.
LITTLE SISTERS OF THE POOR SAINTS PETER AND PAUL HOME,
Petitioners,
v.
PENNSYLVANIA, et al.,
Respondents.

AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that all parties required to be served, have been served, on this 8th
day of April, 2020, in accordance with U.S. Supreme Court Rule 29.3, three (3) copies of
the foregoing BRIEF OF HOWARD UNIVERSITY SCHOOL OF LAW, CIVIL AND

HUMAN RIGHTS CLINIC IN SUPPORT OF RESPONDENTS by placing said
copies in the U.S. mail, first class postage prepaid, addressed as attached.

RAY YI6ND CHARLES CLARK
ON S. ADAMS, LEGAL & COMMERCIAL PRINTERS
1615 L Street, NW, Suite 100
Washington, DC 20036
(202) 347-8203
District of Columbia: SS
Subscribed and Sworn to before me this 8th day of April, 2020.

4

EN PIERANGELI
RY PUBLIC, DISTRICT OF C UMBIA
My Commission Expires June 14, 2020.

Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Avenue, NW
Suite 700
Washington, DC 20036
(202) 349-7208
mrienzi@becketlaw.com
Michael J. Fischer
Deputy Attorney General
Pennsylvania Office the Attorney General
1600 Arch Street
Suite 300
Philadelphia, PA 19103
(215) 560-2171
mfischer@attorneygeneral.gov

Noel J. Francisco
Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USD0J.gov

